               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                     Availability of
                 Critical Applications

                        Audit Report




                                         September 25, 2013

Report Number IT-AR-13-008
                                                                    September 25, 2013

                                                                             Availability
                                                                of Critical Applications

                                                           Report Number IT-AR-13-008



BACKGROUND:
To align with its 2013 plan, the U.S.         terminals disconnected from the network
Postal Service is striving to expand its      to the designated help desk. Employees
business by increasing the availability of    are not properly following policy or
its critical applications to its customers.   receiving formal communication
This expansion is being met through           materials on reporting POS terminal
technology and process enhancements           outages. Further, the Postal Service
of critical business system performance.      does not monitor the availability of POS
                                              terminals during business hours or track
Our objective was to assess the               how long terminals are unavailable. No
availability of critical Postal Service       group has been assigned to conduct
applications and related monitoring           real-time monitoring or to develop and
activities, and we judgmentally selected      maintain reports and metrics on the
four critical applications for review —       availability of POS terminals, unlike the
Facility Access and Shipment Tracking,        other critical applications we reviewed.
usps.com, Point-of-Service (POS)–
Retail, and PostalOne!–Business               In fiscal year
Customer Support System. We did not                                        . We
assess customers' experiences with the        identified annual revenue at risk totaling
services provided by these applications.      $809,403 related to 92 outages from
                                              February through May 2013.
WHAT THE OIG FOUND:
The Postal Service is proactive in            WHAT THE OIG RECOMMENDED:
monitoring the Facility Access and            We recommended the Postal Service
Shipment Tracking, PostalOne!-                develop, and require POS users to
Business Customer Support System,             review, updated guidance on system
and usps.com applications to ensure           outages, and immediately report all
they meet established availability            outages to the designated help desk.
targets. It has implemented and               We also recommended management
continues to update processes that            assign a group to conduct real-time
maintain incident, change, and                monitoring and develop a process for
availability data.                            timely reporting of outages. The Postal
                                              Service should also maintain reports
However, the Postal Service has not           and metrics on the availability of POS
been as effective in ensuring that its        terminals.
POS terminal operations meet
availability targets. Employees at Postal     Link to review the entire report
Service sites do not always report
September 25, 2013

MEMORANDUM FOR:              JOHN T. EDGAR
                             VICE PRESIDENT, INFORMATION TECHNOLOGY

                             KELLY M. SIGMON
                             VICE PRESIDENT, CHANNEL ACCESS

                             EDWARD F. PHELAN
                             VICE PRESIDENT, DELIVERY AND POST OFFICE
                             OPERATIONS




FROM:                        John E. Cihota
                             Deputy Assistant Inspector General
                              for Financial and Systems Accountability

SUBJECT:                     Audit Report – Availability of Critical
                             Applications (Report Number IT-AR-13-008)

This report presents the results of our audit of the Availability of Critical Applications
(Project Number 12XG033IT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul L. Kuennen, director,
Information Technology, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Availability of Critical Applications                                                                               IT-AR-13-008




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Availability and Monitoring of Facility Access and Shipment Tracking, PostalOne!-
   Business Customer Support System, and usps.com ................................................ 2

Point-of-Service Terminal Operations ............................................................................. 3

Point-of-Service Monitoring Activities During Customer Business Hours ........................ 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology .......................................................................... 12

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Other Impacts ........................................................................................... 14

Appendix C: Management’s Comments ........................................................................ 15
Availability of Critical Applications                                                                     IT-AR-13-008




Introduction

This report presents the results of our self-initiated audit of the availability of the
U.S. Postal Service's critical applications (Project Number 12XG033IT000). Our audit
objective was to assess the availability of critical Postal Service applications and related
monitoring activities. See Appendix A for additional information about this audit.

The Postal Service is committed to building a solid foundation of service and operational
excellence with new gains in service and efficiency. This commitment is driven by an
overriding principle that the Postal Service exists to serve the customers for whom its
services and operations were created. Therefore, it is imperative that key Postal Service
systems are reliable and available to support the business and mission critical functions
that will provide and promote increased service and efficiency.

The Postal Service is striving to expand its business by providing increased availability
of its critical applications. Availability ensures there is timely and reliable access to
information resources1 for authorized users or other systems when required. Improving
system reliability involves extreme scalability2 of information technology (IT) platforms to
deliver increased availability and support. The target availability level for most
applications is 99.7 percent and, as of January 2013, the target availability level for
online applications increased to 99.9 percent.

We focused on four critical3 applications that support operations and services — Facility
Access and Shipment Tracking (FAST),4 Point-of-Service (POS)–Retail,5
PostalOne!–Business Customer Support System (BCSS),6 and usps.com.7 Although we
assessed availability and terminal outage data on the four applications, we did not
assess customers' experiences with the services provided by these applications.

1
  Information resources include such things as systems and equipment, single-user computer equipment, hardware,
software, data and information, and products and services.
2
  The ability of a computer application or product to continue to function well when it is changed in size or volume in
order to meet a customer's needs.
3
  According to the Postal Service’s own Business Impact Assessments, these applications are deemed critical.
Criticality reflects the need for continuous availability of information.
4
  FAST is the external scheduling and notification engine for drop ship customers and sending automatic updates to
FAST users. Currently, FAST has no impact on the Postal Service's financial reporting.
5
  POS is also referred to as POS ONE. The POS terminal is the primary hardware and software system used to
conduct sales transactions during the Post Office's check-out process. The system is a retail program that plays a
major role in reaching Postal Service goals for improving customer service and empowers front-line personnel to
deliver the level of service and satisfaction that customers expect and demand. In fiscal year
generated over                  in revenue.
6
  PostalOne!-BCSS provides mailers with an efficient, cost-effective, and seamless process from mail preparation to
mail delivery; facilitates the integration of mailer and Postal Service business processes to expedite and better
support mail acceptance and operations; and offers businesses the capability for electronic access, electronic
documentation, business mail management, and electronic payment. In                                      generated over
             in revenue.
7
  usps.com is the home page of the Postal Service's external website and provides customers with an online, one-
stop shopping experience. From January 2012 to April 2013, usps.com recorded over 12 million visits to its website
per day.
                                                                1
Availability of Critical Applications                                                                      IT-AR-13-008



Conclusion

The Postal Service is proactive in its efforts to monitor the FAST, PostalOne!-BCSS,
and usps.com applications to ensure they meet established availability targets. Overall
availability rates for these systems have ranged from 99.81 to 99.93 percent.
Management implemented — and is continuing to update — the monitoring processes
and tools8 that maintain incident, change, and availability data.

However, the Postal Service has not been as effective in ensuring that its POS terminal
operations meet availability targets. Specifically, employees at Postal Service sites did
not always promptly or properly report POS terminals that were disconnected from the
network to the designated help desk or identify the reasons for these outages. In
addition, the Postal Service was not effectively monitoring the availability of POS
terminals during customer business hours, unlike the other applications we reviewed.
Further, the Postal Service did not have a mechanism to determine the duration of POS
terminal outages and to ascertain whether POS is meeting the Postal Service's
availability target level. As a result, we identified annual revenue at risk totaling
$809,403 related to POS outages. See Appendix B for additional details.

Availability and Monitoring of Facility Access and Shipment Tracking,
PostalOne!-Business Customer Support System, and usps.com

The Postal Service is proactive in its efforts to monitor the FAST, PostalOne!-BCSS,
and usps.com applications. Although external issues outside the Postal Service's
control can occur,9 management monitors these critical applications to ascertain that it
maintains availability targets10 and addresses issues immediately. Our analysis of
availability data indicates these applications met established targets,11 with availability
levels ranging from 99.81 percent to 99.93 percent from FY 2011 through April 2013, as
noted in Table 1.

                   Table 1. Application Availability — FY 2011 to April 2013

              Application Name                     Total Outage Hours                         Availability
           FAST                                            73                                  99.81%
           PostalOne!-BCSS                                 48                                  99.87%
           usps.com                                        37                                  99.93%
          Source: CSR data.




8
  The Postal Service is replacing the application that manages change and incident issues (Remedy Information
Technology Service Management [RITSM]) to a system (Remedy Incident and Change Management) with the
capability of tracking incidents, problems, changes, known errors, work arounds, and IT system releases.
9
  On June 19, 2013, an external Internet issue occurred which affected some services provided externally through
usps.com; however, this issue did not adversely impact availability targets.
10
   Information on critical applications identified on the Chief Information Officer (CIO) Watch List is maintained in the
CIO Scorecard Reporting System (CSR). The CSR application provides scorecards for measuring performance to the
CIO organization.
11
   As of January 2013, the target availability level for online applications changed from 99.7 to 99.9 percent.


                                                           2
Availability of Critical Applications                                                               IT-AR-13-008



The Enterprise Systems Monitoring (ESM) group uses several monitoring tools12 to
identify system outages and has implemented an immediate response system for
notifying appropriate stakeholders to triage and resolve outage issues. In addition,
management implemented an effective process for overseeing, documenting, and
reporting the daily performance, availability, and origin of outage issues associated with
these critical applications.

Our review of change, incident, and availability data revealed that management can
improve the documentation process to enable consistent and accurate tracking and
trend reporting. However, the IT Performance Achievement and IT Strategy and
Compliance groups13 are updating their processes and tools that maintain incident,
change, and availability data. In addition, improvements are underway for monitoring
and collecting availability data on critical applications.14 Therefore, we did not make any
recommendations in this report, but encourage management to continue their efforts
regarding these matters.

Point-of-Service Terminal Operations

Employees at Postal Service sites do not always promptly or properly report POS
terminals that are disconnected from the network15 to the designated help desk. In
reconstructing the POS terminal outage information, we determined there were at least
92 POS terminals disconnected from the network during an 8-week period from
February through May 2013.16 The minimum outage timeframes17 for these POS
terminals ranged from 2 to 22 days. Sixty-five of these 92 terminals (or 71 percent) did
not have help desk tickets within the RITSM18 application noting the outage, and the
Retail Business Technology group19 did not provide a help desk ticket for these
65 terminal outages. Further, they could only identify the current status for six of 92 of
the disconnected terminals (or 7 percent).




12
   ESM, under the IT Performance Achievement group, uses the Webmetrics and TMART tools to monitor critical
Postal Service applications.
13
   See Appendix A.
14
   The IT Performance Achievement group recently implemented and is continuing to develop its IT Service
Management (ITSM) program. The program is the coordinated design, implementation and operation of several
widely accepted frameworks, methods, and standards for continuous service improvement of the IT enterprise.
15
   POS terminals disconnected from the network or that do not respond to a ping are considered terminal outages in
this report.
16
   We requested FY 2011 through May 2013 outage information on POS terminals; however, the Postal Service could
only provide information for 8 non-consecutive weeks from February through May 2013.
17
   We determined the minimum outage timeframes based on the last reported Enterprise Desktop Manager (EDM)
connection date to the date of Retail Business Technology emails sent to the site inquiring about the outage. The
actual POS outage time was likely more than the outage timeframes. A program runs on the POS terminals when the
system is booted nightly and connects to the EDM system. The last EDM connection is tracked to identify machines
which have not connected to the network.
18
   RITSM (Version 5) contains problem management (help desk) and change management modules.
19
   This group manages the POS terminals to support retail business needs related to providing customers with easy
access to products and services, customer service, data transactions, and policies.


                                                        3
Availability of Critical Applications                                                                IT-AR-13-008



Postal Service policy20 states that if a POS terminal becomes unavailable, including
time spent in a degraded mode,21 the help desk should be notified and a ticket opened.
Policy also states that all problems must be recorded to capture the issues, identify the
root causes, provide quick resolution, and minimize the business impact on
operations.22

This occurred because sites are not properly following policy to report POS terminal
outages to the designated help desk. Also, the Retail Business Technology group is not
providing sufficient guidance23 on outage issues, including how and when to report POS
terminal outages.

Timely resolution of POS terminal outages assists in restoring the ability to process
debit and credit card transactions and reducing overall customer wait times. Also, the
inability to process debit and credit card transactions could result in a reduction in the
annual                      generated revenue. We identified annual revenue at risk
totaling $809,403 relating to POS outages. See Appendix B for additional details.

Point-of-Service Monitoring Activities During Customer Business Hours

The Postal Service is not effectively monitoring the availability of POS terminals during
customer business hours. Policy states that managers must ensure that information
resources are available and continuously monitored.24 The Desktop Computing25 group
pings26 the POS terminals and compiles a daily State of Health report,27 and the EDM
process28 gathers information nightly on the POS terminals’ last EDM connection.
However, during customer business hours, management cannot assess the availability
of POS terminals because there is no real-time monitoring that alerts management of
POS terminal outages or terminals operating in degraded mode. Also, management
does not have a way to track how long POS terminals are unavailable or if POS is
meeting the Postal Service’s availability target level.29




                                       POS ONE Procedures Guide, Section 14, Degraded/Stand-Alone Mode, dated
January 15, 2013; and Management Instruction PO-130-2003-1, POS One Manual Workaround: Business
Contingency and Continuity Plan Documentation, pages 9-10, dated August 18, 2003.
21
   When a terminal goes into a degraded mode, there is no connectivity and it cannot accept debit and credit card
transactions.
22
   Problem Management Policy, Version 1.0, page 1, dated August 17, 2012; and Problem Management Process,
Version 1.0, pages 1-4, dated August 17, 2012.
23
   There is online training, which covers three areas (POS One Front Office Web-Based; POS One Back Office
Administration; and POS One Back Office Close-Out); however, the training does not include important details on
how and when to report outages and this information is not communicated regularly to the sites.
24
   Handbook AS-805, Information Security, Section 2-2.10, Officers and Managers; Section 9-9, Availability; and
Section 9-9.6, High Availability, dated July 2012.
25
   See Appendix A.
26
   Each script that collects data from a POS terminal begins with a ping to ensure the target machine is reachable.
27
   The State of Health report contains data on all POS terminals nationwide and is used as a post-review of the POS
environment as captured during the daily ping process.
28
   A program runs on the POS terminals when the system is booted nightly and connects to the EDM system. The last
EDM connection is tracked to identify machines which have not connected to the network.
29
   The current target availability level for critical applications is 99.7 percent.


                                                        4
Availability of Critical Applications                                                                      IT-AR-13-008



This occurred because there is no group assigned to conduct real-time monitoring and
reporting of POS terminal outages to the designated help desk and no one is tasked
with developing and maintaining metrics on the availability of POS terminals over time.30
Without timely detection and resolution of POS terminal outages, the Postal Service
could be losing revenue and access to services.

The Postal Service plans to deploy new software31 for POS terminals in January 2014.
Although recommendations in this report are specific to POS, the POS monitoring and
availability issues identified relate to Postal Service POS retail operations and are
applicable to the new software. Therefore, we encourage the Postal Service to
strengthen POS monitoring and reporting capabilities during the planning and
implementation process for the new replacement software.

Recommendations

We recommend the vice president, Channel Access, direct the manager, Retail
Business Technology, to:

1. Develop guidance for all Point-of-Service (POS)–Retail associates on responding to
   an outage or a POS terminal in degraded mode.

We recommend the vice president, Delivery and Post Office Operations:

2. Provide the guidance developed by the Retail Business Technology group for Point-
   of-Service (POS)–Retail users on how to respond to an outage or a POS terminal in
   degraded mode.

3. Document and provide oversight to ensure users of Point-of-Service–Retail
   terminals at all Postal Service sites immediately report all terminal outages and
   issues to the designated help desk.




30
   As a result of this audit, the Supply Management group commissioned the vendor to obtain metrics needed to
calculate POS availability for the past year.
31
   Retail Systems Software (RSS) will replace various established retail solutions, including the software currently in
the POS terminals.


                                                            5
Availability of Critical Applications                                                 IT-AR-13-008



We recommend the vice president, Channel Access, in coordination with the vice
president, Information Technology:

4. Assign responsibility for conducting real-time monitoring of Point-of-Service–Retail
   terminals and developing a process for timely reporting outages and degraded
   issues.

5. Develop and maintain metrics and reports on the availability of Point-of-Service–
   Retail terminals over time.

Management’s Comments

Management neither agreed nor disagreed with the findings and recommendation 5;
disagreed with recommendations 1, 3, and 4; and agreed with recommendation 2.

Regarding recommendation 2, management agreed to remind employees of the proper
procedures on how to respond to an outage or POS terminals in degraded mode. The
target date for this reminder is October 30, 2013.

Regarding recommendation 1, management noted the existence of guidance in the form
of FAQs (frequently asked questions), procedures, guides, and contingency plans.

Regarding recommendation 3, management stated the data provided to the U.S. Postal
Service Office of Inspector General (OIG) indicates that employees call the help desk
when there is an issue, substantiating their awareness of procedures.

Regarding recommendation 4, management indicated that end users are an effective
way to monitor POS and enable the help desk to effectively and efficiently troubleshoot
and resolve issues. They also stated that real-time monitoring represents a major effort;
it is not feasible to run the current technical capability used in support of POS more than
five times per day under normal conditions; and implementing a real-time monitoring
system would be costly and the benefits not justifiable.

Regarding recommendation 5, management noted they currently use a help desk ticket
case rate to measure issues with POS. Management reviews the case rate quarterly
with the vendor to continuously improve system availability.

Management also noted that our audit methodology did not measure the POS
application, but rather factors that may affect the full functionality of retail point of sale.
Management also noted that the report did not take into account terminals that were
unavailable due to planned reasons and that their summary information identified help
desk tickets for many of the terminal outages. See Appendix C for management’s
comments, in their entirety.




                                                6
Availability of Critical Applications                                             IT-AR-13-008




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 2 and the
corrective action should resolve the issue identified in the report.

We consider management’s comments regarding recommendations 1, 3, 4, and 5 to be
non-responsive. The intent of recommendation 1 is to ensure direct, detailed, and
periodic communication is developed for reporting POS terminal outages timely. This
could include important details on how and when to report outages and how often
information is communicated to the sites.

Regarding recommendation 3, the data provided did not show that all POS terminal
outages had a corresponding help desk ticket. Also, we examined the additional data
provided after our exit conference and could not use it for report purposes because of
errors in the data. As such, we reported our findings based on the supporting evidence.

Regarding recommendation 4, we believe management cannot solely rely on end users
for monitoring availability because all outages do not have a help desk ticket. Also,
while we understand there is a cost to real-time monitoring, the benefit of monitoring
more than five times per day may be beneficial for ensuring that all POS terminal
services and tender types are provided to Postal Service customers in a timely manner.

Management’s response to recommendation 5 did not address the intent of the
recommendation, which was to maintain metrics on the availability of the POS terminals
over time. While we understand they have a help desk ticket case rate, this does not
measure the availability of POS terminals, but only reflects the outage category for
reported help desk tickets. Management does not maintain a metric that is in line with
Delivering Results, Innovation, Value, and Efficiency (DRIVE) Initiative 19, which targets
meeting availability requirements for critical applications. Also, management does not
generate POS outage reports which reflect the unavailability of POS terminals.

Regarding management’s comments about our audit methodology, we disagree. As
stated earlier in this report, our objective was to assess the availability of four critical
Postal Service applications (including POS) and the related monitoring activities. We
understand the POS application alone cannot provide the full functionality of services
customers expect at the retail counters (use of all tender types) without the availability
of the network and hardware. Therefore, the availability of all point of sale components
together enable the availability of point of sale services to Postal Service customers.
During our review we requested, but did not receive, information to explain the reasons
for the POS terminal outages identified and were told this information was not
maintained or available. Therefore, we relied on help desk tickets in Remedy; however,
the data did not correlate with the data we had on the terminal machines (POS terminal
machine name). Further, the additional information provided in the summary document
during our exit did not correlate with the information gathered during our audit. As a




                                              7
Availability of Critical Applications                                        IT-AR-13-008



result, we reported our findings based on supporting evidence (as discussed in our
response to recommendation 3).

The OIG considers recommendation 2 significant,and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed. Due to the small percentage of terminal outages, we do
not plan to elevate significant recommendations 1, 3, 4, and 5 for formal audit
resolution.




                                           8
Availability of Critical Applications                                               IT-AR-13-008




                                   Appendix A: Additional Information

Background

The Postal Service’s 2013 plan32 focuses on strengthening core operations and
services, while recognizing that its sole existence is to serve its customers. This
involves services that allow customers to shop more efficiently and provide innovative
solutions that meet their business or personal needs. It also involves leveraging Postal
Service strengths by building on the reach and capability of its network and making full
use of the power of information to enhance its services.

Currently, the Postal Service is striving to expand its business with customers by
providing increased availability of its critical applications. The target availability level for
most applications is 99.7 percent and for online applications is 99.9 percent. The DRIVE
initiative consists of 24 initiatives for improving business strategies while providing
streamlined reporting and accountability. Initiative 19,33 assigned to the IT group, targets
meeting evolving critical business system scalability, performance, and availability
requirements through technology and process enhancements. IT groups assisting in
this initiative include:

      IT Performance Achievement
       Responsible for elevating availability, capacity, and performance transformation to
       99.9 percent; and identifying an extreme scale computing roadmap for achieving
       more than 99.9 percent availability. Typically this group oversees incident and
       change management (including the IT service desk), capacity and performance,
       enterprise system monitoring, problem management processes, and related policies.
       This group recently implemented the ITSM process, which is the coordinated design,
       implementation, and operation of several widely accepted frameworks, methods,
       and standards as part of an enterprise IT continuous service improvement program.

      ESM
       Reports directly to IT Performance Achievement and provides IT customers with
       both infrastructure and application monitoring services for distributed systems. They
       also provide incident management and operations support services for system
       administrators and application support staff. In addition, they provide
       24 hours a day/7 days a week monitoring, notification, information, and operations
       support services. Although they monitor PostalOne!-BCSS, FAST, and usps.com,
       they do not monitor the POS terminals.




32
     Vision 2013, Five-Year Strategic Plan for 2009-2013, dated October 2008.
33
     DRIVE 19, Achieve Six Sigma IT System Reliability.


                                                           9
Availability of Critical Applications                                                                  IT-AR-13-008




      Solutions Development and Support
       Responsible for baseline IT services, architecture, metrics, and risks, including
       identification of clear IT value services to business. Specifically, this group is
       responsible for developing, maintaining, and enhancing of business systems,
       including overseeing the transition of systems developed by business partners to an
       internal supported environment and supporting ongoing changes and new
       functionality.

      Business Relationship Management
       Responsible for developing the Postal Service's business services map, business
       needs targets, and business cases. This involves identifying process governance,
       architectures, and the component tools of the IT services needed to meet the
       business needs for a range of best-in-class availability; providing specific cost
       models and implementation roadmaps for availability models; and determining the
       roadmap and costs for IT services to achieve the business requirements. Typically,
       this group is responsible for managing the planning, development, deployment, and
       maintenance of integrated business systems solutions for Finance, Human
       Resources, Marketing, Enabling, Field Relations, and other administrative support
       function customers.

      IT Strategy and Compliance
       Responsible for managing the governance and compliance functions for Postal
       Service IT for quality continuous improvement. They standardize IT processes and
       procedures, improve IT processes that drive effective service delivery, and align IT
       programs with approved strategies for integrated results. In addition, they develop,
       audit, and define compliance against IT policies, procedures, and standards. This
       group is also responsible for maintaining and providing the USPS Office of the CIO
       Daily Flash Report34 for key Postal Service applications that are on the CIO Watch
       List and reported in the CSR system.

POS, with over 45,000 terminals, is the primary hardware and software system used to
conduct sales transactions. POS automates retail transactions, enhances the customer
experience, and captures transactional data related to products and services sold. As a
major revenue reporting system, POS plays a major role in improving customer service
and providing employees with the tools required to efficiently and easily provide
services. POS terminals can function in stand-alone mode during emergencies and
transmit when full network connections are reestablished. Without POS, the Postal
Service would have limited ability to service customers and perform accurate analysis of
retail activities.

If a POS terminal is not functioning properly, users should report the issue immediately.
This would also include a POS failure or a POS terminal in degraded mode. If a terminal
is in degraded mode, the retail associate will not be able to accept credit and debit
cards transactions via the terminal or perform end-of-the-day closeouts. To report an
34
     This report is provided to the vice president, IT, to share with the Executive Leadership Team.


                                                             10
Availability of Critical Applications                                                             IT-AR-13-008



issue, a user should contact the designated help desk (currently staffed by a
contractor). The help desk troubleshoots the issue and opens a ticket within RITSM.
There is no manual process available to cover all of the POS functions; therefore,
customers, business partners, and Postal Service revenue may be impacted if the
terminals are not fully functional.

The Postal Service plans to replace the current software on all retail systems, including
the POS terminals, with RSS in 2014. RSS will provide employees and business
partners with tools to perform their jobs, sell retail products, and serve customers more
efficiently.

Groups with responsibilities related to POS terminal operations and monitoring activities
include:

    Retail Business Technology35
     Responsible for managing the development, implementation, maintenance, review,
     and operation oversight of retail service equipment. The group also manages the
     lifecycle of multiple platforms of hardware and software solutions such as the POS
     terminals to support retail business needs related to providing customers with easy
     access to products and services, customer service, data transactions, and policies.
     In addition, they manage the Retail Data Mart (RDM),36 including methodologies for
     analysis and use of the data collected. Retail managers use RDM reports for
     operations planning, sales, and market analysis to improve management of product
     inventory, staffing levels, customer service, and overall store performance. The
     Retail Business Technology group oversees the vendor contract and works directly
     with the vendor to manage the POS terminals.

    Desktop Computing37
     Responsible for supporting the overall POS network by running scripts that ping the
     POS terminals to determine network connection. In addition, they develop the State
     of Health reports that provide the overall state of the POS terminals.

    IT Software, Services, and Retail Systems Category Management Centers38
     Responsible for managing the contract between the Postal Service and the vendor.
     The vendor provides support for both the hardware and software of the POS
     terminals and their help desk troubleshoots any POS terminal-related issues. The
     help desk uses RITSM, which is the problem tracking and reporting system that is
     used to keep track of customer reported problems and requests.




35
   Retail Business Technology is under the Channel Access group.
36
   RDM is a data storage system that houses retail customer transaction information from all POS offices. Daily
transmittals of data from offices into the RDM enable the retail organization to track and analyze customer
preferences and purchase trends.
37
   Desktop Computing is one of four areas that make up the Enterprise Access Infrastructure group under IT.
38
   IT Software, Services, and Retail Systems Category Management Center is under the Supply Management group.


                                                      11
Availability of Critical Applications                                                                  IT-AR-13-008




Objective, Scope, and Methodology

Our objective was to assess the availability of critical Postal Service applications and
related monitoring activities. To accomplish our objective, we reviewed policies,
procedures, and processes related to problem, incident, and change management as
well as the availability of critical systems. We obtained additional information (Business
Impact Assessment, relevant contracts, solution development release schedules, Yearly
National Flash reports, and Pulse Check documents) regarding the in-scope
applications from officials in the following areas:

    Channel Access, representing Retail Business Technology and usps.com.

    Consumer and Industry Affairs, representing Enterprise Customer Care.

    Delivery and Post Office Operations, representing Customer Services Operations.

    IT, representing Enterprise Access Infrastructure, Performance and Achievement,
     Solutions Development and Support, and IT Strategy and Compliance.

    Mail Entry and Payment Technology and Product Information, representing Address
     Management.

During the survey phase, we obtained and reviewed incident and change data39 from
Remedy; availability information from the CIO 8-Week Trend, Daily Flash, Weekly IT
reports and the CSR module; and general and security information documented in the
Enterprise Information Repository (EIR) system.40 As a result, we judgmentally selected
four applications for review — FAST, POS, PostalOne!-BCSS, and usps.com.

We also reviewed and responded to information obtained via the OIG blog titled Your
Experience with the Customer Experience. We also collected and analyzed additional
incident, change, outage, and availability data41 on the four judgmentally selected
applications to identify systemic issues related to outages and opportunities for
improvement. We analyzed CSR availability data and manual adjustment information42
to verify availability targets were met for FAST, PostalOne!-BCSS, and usps.com for
specific periods from FY 2011 through April 2013. We also analyzed POS terminal
outages listed in emails to determine whether they had corresponding help desk tickets
and the reason for the outage. We conservatively calculated the outage duration from
the last ping date of the POS terminal to the date the notification email was provided to

39
   Change and incident data for FY 2011 to January 2013.
40
   The EIR provides a centralized storage and access location for standard corporate information resource objects.
41
   Change, incident, and outage data on FAST, PostalOne!-BCSS, and usps.com for the period FY 2011 through
April 2013 extracted from Remedy, and availability data extracted from the CSR module in the Enterprise Data
Warehouse. For POS, we obtained change and incident data from Remedy, data on terminal ping results, State of
Health reports from the Desktop Computing group, and outage information from the Retail Business Technology
group.
42
   We analyzed information on blackout requests, which required adjustments to CSR availability data.


                                                         12
Availability of Critical Applications                                                                IT-AR-13-008



the area coordinators. We reviewed the Enterprise Data Portal (EDP)43 for pertinent
POS information and the Request Time Out and State of Health reports. Although we
assessed availability and terminal outage data on the four applications and reviewed
comments from the OIG blog, we did not assess customers' experiences with the
services provided by these applications.

We conducted this performance audit from September 2012 through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 14, 2013, and included their
comments where appropriate.

We assessed the reliability of the reported availability levels of the FAST,
PostalOne!-BCSS, and usps.com applications by reviewing the detailed outage data
(including outage dates, time, and duration) from CSR, along with blackout reports for
FYs 2011 through 2013. We also interviewed agency officials knowledgeable about the
data and determined that the data were sufficiently reliable for the purposes of this
audit.

Prior Audit Coverage

In our report titled Fiscal Year 2010 PostalOne! Outage (Report Number FF-AR-10-205,
dated August 5, 2010), we reported that the February 2010 PostalOne! outage impacted
mail acceptance operations and revenue collection efforts nationwide. Although the
Postal Service implemented a contingency plan during this period, it was not adequately
prepared to manually support operations during such an extended outage. In addition,
employees did not record revenue for mailings received during this period until the
system returned to full operation. Further, the Postal Service’s reliance on a system that
has frequent interruptions in availability could impact successful remediation of an
existing significant deficiency related to business mail acceptance. We identified
monetary impact totaling $355,107.

We made two recommendations to update and test the contingency plan to provide for
the performance of key mail acceptance procedures in the absence of PostalOne! and
test the remediation controls identified to address gaps related to PostalOne!
interruptions that affected efforts to remediate the significant deficiency. Management
agreed with both recommendations.




43
  The EDP provides information on the POS terminals such as facility location, machine name, last ping date, and
last EDM connection date.


                                                        13
Availability of Critical Applications                                                                     IT-AR-13-008



                                        Appendix B: Other Impacts

               Recommendation                        Impact Category                         Amount
                     3                               Revenue at Risk44                      $2,319,253
                    4, 5                            Improved Service45                         None

We estimated revenue at risk of $2,319,253 by calculating the average daily debit and
credit walk-in revenue for a POS terminal.

      We calculated the average debit walk-in revenue for a POS terminal by dividing the
       total FY 2012 debit tender walk-in revenue of                  by 365 days and by
       45,853 terminals, which equals          .

      We calculated the average credit walk-in revenue for a POS terminal by dividing the
       total FY 2012 credit tender walk-in revenue of                  by 365 days and
       by 45,853 terminals, which equals          .

We projected the total revenue at risk for the 8-week period back 2 years and forward
through December 31, 2013 (see Table 2).

                                Table 2: Other Impact, Revenue at Risk


                                                       Revenue at
                                        Average         Risk for               Annual
      Tender                             Daily          8-Week                Revenue   Total Revenue
       Type                              Rate            Period                at Risk     at Risk
       Debit                                                                                $ 798,904
       Credit                                                                                1,520,349
       Total                                            $124,523.63            $809,403     $2,319,253
     Source: OIG calculation.




44
   Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
currently provided by the Postal Service).
45
   Initiatives aimed at expanding and improving the quality of and access to products and services that serve the
entire spectrum of the Postal Service customer base.


                                                           14
Availability of Critical Applications                             IT-AR-13-008




                              Appendix C: Management’s Comments




                                             15
Availability of Critical Applications        IT-AR-13-008




                                        16
Availability of Critical Applications        IT-AR-13-008




                                        17
Availability of Critical Applications        IT-AR-13-008




                                        18
